UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Division of Marketing Practices
Craig Tregillus
ctregillus@ftc.gov

Direct Dial: (202) 326-2970
Facsimile: (202) 326-3395

December 13, 2012
Mr. Stephen Dirksen, General Counsel
North Carolina Board of Funeral Service
1033 Wade Ave. - Suite 108
Raleigh, North Carolina, 27605-1158
Dear Mr. Dirksen:
This letter responds to your request for clarification of the circumstances under which a
casket offered by a funeral provider must be listed in the provider’s Casket Price List (“CPL”).
The question comes from a provider in your state that wishes to test market a casket to select
clients. The provider will store the casket on its premises, but not in public view in its selection
room, and will show the casket only to clients it believes might wish to purchase it.
As you know, the Funeral Rule compliance guide states that funeral providers “need list
only those caskets that you usually offer for sale that do not require special ordering.”1 The
question you raise relates to how best to read this phrase. In staff’s view, the meaning is clear:
any casket that does not require special ordering is “usually offered” for sale. Any contrary
interpretation would defeat the purposes of the CPL requirement; namely, ensuring that all
consumers receive information about every pricing alternative and casket choice a provider can
readily provide, and at the same time preventing a provider from concealing the availability of
less expensive caskets and offering them only to clients unable to afford a more expensive
alternative.
Accordingly, because the provider that prompted your inquiry will store the caskets it
wishes to test market, and will not need to special order them, they must be listed on its CPL for
as long as the provider offers them to any of its clients. The fact that the provider may intend to
offer the casket only to a select group of customers does not mean that it does not “usually offer”
the casket for sale.
As you know, the views expressed in this letter are those of the FTC staff. They have not
been reviewed, approved, or adopted by the Commission, and they are not binding on the
Commission or any individual Commissioner. However, they do reflect the views of FTC staff

1

FTC, Complying With the Funeral Rule (2004), p. 14 (emphasis in original).

Mr. Stephen Dirksen
Page 2 of 2
charged with enforcement of the Funeral Rule. Staff Funeral Rule opinions are now routinely
posted on the FTC website at http://www.ftc.gov/bcp/edu/microsites/funerals/staffopinions.shtm.
Sincerely,
/s/
Craig Tregillus
Funeral Rule Coordinator

